CERTIFICATE OF COMPLIANCE
Case Nos. 19-267 & 19-348
Caption: Biel & Morrisey-Berru cases
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 6,448 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 10, 2020.

Samantha Collins
Record Press, Inc.

Sworn to before me on
February 10, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County

